         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Could Improve Its
       Redistribution of Superfund
       Payments to Specific Sites
       Report No. 2006-P-00027

       July 31, 2006
Report Contributors:             Paul Curtis                 Kevin Ross
                                 Margaret Bastin             Shannon Schofield
                                 Arthur Budelier             Juliet Stebbens
                                 Alfred Falciani             Wendy Swan
                                 Robert Evans




Abbreviations

CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
CFO          Chief Financial Officer
EPA          U.S. Environmental Protection Agency
OARM         Office of Administration and Resources Management
OCFO         Office of the Chief Financial Officer
OFM          Office of Financial Management
OFS          Office of Financial Services
OGD          Office of Grants and Debarment
OIG          Office of Inspector General
OSWER        Office of Solid Waste and Emergency Response
RMDS         Resources Management Directive System
                        U.S. Environmental Protection Agency                                             2006-P-00027

                                                                                                          July 31, 2006

                        Office of Inspector General


                        At a Glance

                                                                             Catalyst for Improving the Environment


Why We Did This Review              EPA Could Improve Its Redistribution of
We performed this review to         Superfund Payments to Specific Sites
examine a potential Superfund
cost recovery issue noted            What We Found
during our audit of the U.S.
Environmental Protection            EPA did not make timely redistributions of Superfund cooperative agreement,
Agency’s (EPA’s) fiscal year        interagency agreement, and small purchase payments from the general site
2003 financial statements. As       identifier “WQ” to the specific Superfund sites or other general site identifiers.
of August 2003, EPA had
                                    The finance offices that we reviewed recorded the payments to “WQ” instead of
recorded payments of
$97 million for Superfund           redistributing them to the appropriate general or site-specific identifiers, as
response costs to a general site    required. As of January 2006, $39 million was recorded in “WQ” for those
identifier “WQ” that should         funding vehicles. The payments remained undistributed for periods ranging from
have been redistributed to          2 months to 10 years. As a result, the $39 million may not be considered in
specific sites or other general     settlement negotiations and oversight billings. Consequently, these funds may not
site identifiers to improve         be recovered from responsible parties and be available for future site cleanup
EPA’s cost recovery.                activities.

Background                          We found various reasons why EPA did not timely redistribute the “WQ” costs.
                                    EPA did not establish “WQ” procedures, consistently monitor the “WQ” accounts,
EPA has the authority through       and provide “WQ” training. EPA also did not require cooperative agreement
the Superfund program to            recipients to provide the site-specific cost detail needed.
respond directly to releases of
hazardous substances and seek       Subsequent to our audit, EPA provided unaudited data reports that indicated the
recovery of its costs from the      undistributed “WQ” was reduced to $13 million as of May 12, 2006.
responsible parties. EPA
accounts for response costs at       What We Recommend
a site-specific level to enable
cost recovery. EPA obligates        We recommend that EPA (1) develop written “WQ” procedures, including
costs not readily identifiable to   timeliness standards and monitoring procedures; (2) provide training; (3) change
a site to the general site          cooperative agreement conditions to require recipients to provide cost details
identifier “WQ,” and upon           within 24 hours of drawing down funds, and enforce those conditions; and
payment redistributes the costs     (4) redistribute the remaining historical “WQ” costs.
to specific sites.
                                    EPA began corrective action on several of our recommendations before we
For further information,
contact our Office of
                                    completed the audit, and generally agreed with all recommendations.
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2006/
20060731-2006-P-00027.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                         OFFICE OF 

                                                                                    INSPECTOR GENERAL





                                           July 31, 2006

MEMORANDUM

SUBJECT:               EPA Could Improve Its Redistribution of Superfund Payments to
                       Specific Sites
                       Report No. 2006-P-00027

TO:                    Lyons Gray
                       Chief Financial Officer

                       Susan Parker Bodine
                       Assistant Administrator for Solid Waste and Emergency Response

                       Luis A. Luna
                       Assistant Administrator for Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures. The estimated cost of this report – calculated by
multiplying the project’s staff days by the applicable daily full cost billing rates in effect at the
time – is $322,000.

Action Required

In accordance with EPA Manual 2750, the Office of the Chief Financial Officer (OCFO), as the
primary Action Official, is required to provide a written response to this report within 90
calendar days. OCFO should work with the Office of Solid Waste and Emergency Response and
the Office of Administration and Resources Management to coordinate the response, which
should include a corrective action plan for agreed upon actions, including milestone dates. We
have no objection to the further release of this report to the public. This report will be available
at http://www.epa.gov/oig.
If you or your staff have any questions, please contact Paul Curtis at (202) 566-2523 or
curtis.paul@epa.gov, or Meg Bastin at (513) 487-2366 or bastin.margaret@epa.gov.


                                                     Sincerely,



                                                     Bill A. Roderick
                                                     Acting Inspector General
       EPA Could Improve Its Redistribution of Superfund Payments to Specific Sites



                                Table of Contents 


Chapters
 1    Introduction ...........................................................................................................      1


              Purpose ..........................................................................................................    1        

              Background ....................................................................................................       1        

              Scope and Methodology.................................................................................                3


 2    EPA Could Improve Its Superfund “WQ” Site Cost Redistribution Process...                                                     4


              EPA Did Not Timely Redistribute “WQ” Site Costs.........................................                             4

              Various Factors Contributed to Untimely Redistributions ...............................                              5

              Untimely Redistributions Impact Cost Recovery ............................................                           6

              Agency Actions to Date ..................................................................................            6

              Recommendations .........................................................................................            7         

              Agency Response and OIG Comment ...........................................................                          8


 Status of Recommendations and Potential Monetary Benefits.................................                                        9



Appendices
 A    Details on Scope and Methodology.....................................................................                        10    


 B    Undistributed “WQ” Costs by Region and Funding Vehicle.............................                                          12    


 C    Causes of Untimely Redistributions by Applicable Location 

      and Funding Vehicle .............................................................................................            13    


 D    Full Text of Agency Response ............................................................................                    14    


 E    Distribution ............................................................................................................    20    

                                Chapter 1
                                 Introduction

Purpose
          We performed this review to examine a potential Superfund cost recovery issue
          noted during our audit of the U.S. Environmental Protection Agency’s (EPA’s)
          fiscal year 2003 financial statements. As of August 2003, EPA had recorded
          payments of $97 million for Superfund response costs to a general site identifier
          “WQ” that should have been redistributed to specific site identifiers to improve
          EPA’s cost recovery. The objective of our current review was to answer the
          following questions:

             1) 	Does EPA make timely redistributions of Superfund costs recorded in the
                 “WQ” general site identifier to the specific Superfund sites?

          If EPA does not make timely redistributions:

             2) 	What is the cause of untimely redistributions?

             3) 	What is the effect of untimely redistributions?

             4) 	What actions are needed to ensure timely redistributions?

Background

          EPA established the Superfund program in 1980 under the Comprehensive
          Environmental Response, Compensation, and Liability Act (CERCLA). Since its
          inception, the Superfund program has given EPA the authority to respond directly
          to releases or threatened releases of hazardous substances that may endanger
          public health or the environment. The Agency has the authority to seek the
          recovery of its costs of responding from those parties responsible for release of
          the hazardous substances.

          Since fiscal year 2004, the Superfund Trust Fund has been primarily supported by
          appropriations from general tax revenues. Replenishing the Trust Fund through
          EPA’s cost recovery has decreased significantly over several years and the Trust
          Fund no longer receives tax revenue. Therefore, Superfund cost recovery is
          critical to EPA’s continued efforts under CERCLA.

          Since EPA seeks cost recovery from responsible parties, it is essential that EPA’s
          financial management system account for response costs at a site-specific level.
          Therefore, EPA tracks Superfund costs at sites using unique alphanumeric


                                           1

identifiers. The first four characters of the identifier are known as the site/spill
identifier. The first two digits are numeric, and represent the EPA region (1 of
10) where the site is located. The next two characters identify the site.

EPA established general site identifiers for costs that are not immediately
identifiable to a specific site or are unrelated to a site. EPA uses the general site
identifier “WQ” to obligate amounts funded for a site-specific response, when the
precise amounts applicable to the individual sites cannot be determined at the time
of obligation. According to the Superfund Program Implementation Manual,
Fiscal Year 2006/2007, “WQ” is used to obligate bulk or block funding only,
i.e., where site/spill identifiers exist but funds are not committed to a specific site.
However, when disbursement/payments are made for “WQ” obligations, they
must be associated with a site. For example, EPA could obligate management
assistance funds to the “WQ” site identifier under a multi-site cooperative
agreement, giving the recipient the flexibility to shift resources as needed among
different sites. Additional general identifiers are “ZZ” for preliminary site
assessment costs on sites that have not been assigned an identifier number and
“00” for indirect costs not related to a specific site that will be allocated to the
Superfund indirect cost rate.

EPA disbursed “WQ” costs on four types of funding vehicles: contracts,
interagency agreements, cooperative agreements, and small purchases. EPA
processes contracts and small purchases at the Research Triangle Park Finance
Center and interagency agreements at the Cincinnati Finance Center. EPA is
transferring the processing of cooperative agreements from the regional offices to
the Las Vegas Finance Center.

Cooperative agreements and interagency agreements were the primary funding
vehicles for EPA’s undistributed “WQ” cost payments, as shown in the following
table.

                                              Undistributed
             Funding Vehicles                “WQ” Costs as of
                                               January 2006
     Cooperative Agreements                          $31,532,427
     Interagency Agreements                            6,165,253
     Small Purchases                                   1,798,890
        Subtotal                                      39,496,570
     Contracts (unaudited)                             1,806,639
       Total                                         $41,303,209


A cooperative agreement is a legally binding obligating document through which
EPA often provides funding to a State to carry out removal and/or remedial
activities. Cooperative agreements with “block funding” provide States increased
flexibility to shift resources among multiple activities. An interagency agreement
is a written agreement between Federal agencies under which goods and services


                                   2
         are provided. The Superfund program uses interagency agreements to request
         certain Federal agencies to assist with site cleanups and associated activities and
         to provide ongoing support or services.

         Three offices have primary responsibility for the areas covered in this report. The
         Office of the Chief Financial Officer (OCFO) is responsible for EPA’s financial
         management and Superfund cost recovery system. The Office of Solid Waste and
         Emergency Response (OSWER) manages the Superfund program. The Office of
         Administration and Resources Management (OARM) is responsible for
         administering grants and cooperative agreements.

Scope and Methodology
         We performed this audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. We conducted our audit
         from January 4, 2006, through March 29, 2006. Appendix A contains a more
         extensive discussion of this section.




                                           3

                                Chapter 2
  EPA Could Improve Its Superfund “WQ” Site Cost
              Redistribution Process

          While EPA has timely redistributed “WQ” costs paid through contracts, its
          redistribution process for costs paid through cooperative agreements, interagency
          agreements, and small purchases could be improved. Various factors contributed
          to certain untimely redistributions, which possibly hindered EPA’s ability to
          recover the costs from responsible parties. EPA did not establish “WQ”
          procedures, consistently monitor the “WQ” accounts, and provide “WQ” training.
          Also, EPA did not require cooperative agreement recipients to provide the site-
          specific cost detail needed. The $39 million of Superfund costs not redistributed
          to specific sites may not be considered in settlement negotiations and oversight
          billings. Therefore, these funds may not be recovered from responsible parties
          and be available for future site cleanup activities.

EPA Did Not Timely Redistribute “WQ” Site Costs
          EPA did not make timely redistributions of Superfund cooperative agreement,
          interagency agreement, and small purchase payments from the general site
          identifier “WQ” to the specific Superfund sites or other general site identifiers.
          As of January 2006, the undistributed “WQ” for those funding vehicles totaled
          $39 million. Appendix B contains a table of undistributed “WQ” costs by region
          and funding vehicle. EPA’s Comptroller Policy Announcement No. 96-01 states
          that disbursements will not be recorded against the “WQ” identifier. Once
          obligations are liquidated and disbursements are made, these costs must be
          redistributed from the “WQ” account to the appropriate site/spill identifier. The
          finance offices that we reviewed recorded the payments to the general site
          identifier "WQ" and did not redistribute payments to the appropriate general or
          site-specific identifiers, as required.

          The payments in “WQ” remained undistributed for periods ranging from
          2 months to 10 years. Although EPA did not establish a definition of timeliness,
          we consider these extended periods to be untimely. The project officers and
          finance personnel we interviewed generally believed that a timely period for
          redistributing “WQ” costs would be 1 business day for cooperative agreement
          costs, 30 days for small purchases, and 60 days for interagency agreements.

          Some locations have implemented effective procedures resulting in timely “WQ”
          redistributions. For example, the Research Triangle Park Finance Center
          redistributes contract costs within 1 business day of the project officer invoice
          approval. The Las Vegas Finance Center requires cooperative agreement
          recipients to provide the site-specific cost detail within 24 hours of drawing down


                                           4

          funds. Region 1 requires a recipient of a block-funded cooperative agreement to
          provide the site- specific cost information with its draw down request.

Various Factors Contributed to Untimely Redistributions
          We found various reasons why EPA did not timely redistribute the “WQ” costs
          for cooperative agreements, interagency agreements, and small purchases.
          Appendix C contains a table that matches the following causes with the applicable
          locations and funding vehicles:

             •	 EPA did not establish procedures to ensure the timely redistribution of
                Superfund costs, except for contracts. Although Comptroller Policy
                Announcement 96-01 provided guidance for using the “WQ” identifier,
                EPA did not establish operating procedures or set timeliness standards for
                cooperative agreements, interagency agreements, and small purchases to
                implement the policy. For contracts, Research Triangle Park Finance
                Center was proactive in identifying untimely redistributions and
                establishing operating procedures and timeliness standards.

             •	 EPA did not consistently monitor the amounts charged to “WQ” in the
                regional finance offices, Program Offices, and Finance Centers. Some
                offices that we reviewed monitored the “WQ” account consistently while
                others monitored on an irregular basis or not at all.

             •	 EPA did not provide training in the “WQ” cost redistribution process.
                Project officers and finance personnel were unaware of their
                responsibilities to redistribute “WQ” costs. According to Comptroller
                Policy Announcement 96-01, project officers are responsible for
                redistributing “WQ” disbursements in a timely manner to ensure the
                accuracy of the Agency's reporting and supporting accounting data
                contained in the Agency's financial system.

             •	 EPA did not establish “WQ” performance standards for project officers,
                and did not hold them accountable for their responsibilities related to
                “WQ” redistribution.

             •	 EPA did not provide interagency agreement project officers a standard
                format for transmitting redistribution information to the Cincinnati
                Finance Center.

             •	 EPA did not always request cooperative agreement recipients to provide
                the site-specific cost detail needed for redistributions. According to
                40 Code of Federal Regulations 35, Subpart O, Cooperative Agreements
                and Superfund State Contracts for Superfund Response Actions, Section
                35.6280, the recipient must identify and charge costs to specific sites,
                activities, and operable units, as applicable, for drawdown purposes as


                                          5

                 specified in the cooperative agreement. Neither the project officers nor
                 the finance office requested the cost detail, although the recipients had the
                 capability to provide the detail.

             •	 EPA did not include appropriate terms and conditions in some cooperative
                agreements requiring recipients to provide timely site-specific cost detail.
                For example, some cooperative agreements had a programmatic condition
                allowing the recipient to provide site-specific cost detail only once every
                6 months, preventing the region from making timely “WQ”
                redistributions.

             •	 EPA did not include a review of undistributed “WQ” costs in the closeout
                process for cooperative agreements. As a result, EPA closed some
                agreements without making the redistributions.

Untimely Redistributions Impact Cost Recovery
          Superfund costs not redistributed to specific sites may not be considered in
          settlement negotiations and oversight billings. Therefore, these funds may not be
          recovered from responsible parties and be available for future site cleanup
          activities. Consistent and accurate site-specific charging strengthens the
          program’s cost recovery by ensuring that potentially responsible parties pay their
          fair share of site cleanup costs.

          According to EPA Comptroller Policy Announcement No. 96-01, the Agency
          needs financial information at the site level to perform analyses and make
          resource management decisions. When Superfund costs are not redistributed to
          specific sites, Agency management does not have the accurate financial
          information it needs.

Agency Actions to Date
          EPA began corrective action on several of our findings before issuance of our
          report:

             •	 OCFO agreed to establish written procedures for the “WQ” cost
                redistribution process.

             • 	 EPA is working with cooperative agreement recipients to change a
                 programmatic condition allowing the recipient to provide site-specific cost
                 detail only once every 6 months to a more favorable condition requiring
                 the recipient to provide the information within 24 hours after every draw
                 down of funds.

             • 	 During our audit, EPA reduced the undistributed “WQ” costs in
                 cooperative agreements, interagency agreements, and small purchases


                                           6

             from $39 million to $24 million. Most of the reduction occurred in
             cooperative agreements where Region 4 redistributed $12 million “WQ”
             costs to the appropriate site identifier. Region 5 committed to
             redistributing its “WQ” costs, having obtained the cooperation of its
             recipients to provide the necessary site-specific cost detail. The Cincinnati
             Finance Center worked with interagency agreement project officers to
             reduce the undistributed interagency agreement “WQ” costs from $6
             million to $4 million. Subsequent to our fieldwork, EPA provided data
             reports as of May 12, 2006, that indicated further reductions in the
             undistributed “WQ” costs from $24 million to $13 million. (Appendix B
             contains a table of undistributed “WQ” costs by region and funding
             vehicle.)

          • 	 Region 5 began requiring cooperative agreement recipients to provide
              detailed site identifier cost information when the recipients draw down
              funds.

Recommendations
        We recommend that OCFO, OSWER, and OARM:

          1. 	 As agreed, develop written procedures for implementing EPA’s Superfund
               site-specific accounting policies related to the general site identifier
               “WQ,” including a timeliness standard for redistributions for each funding
               vehicle, an explanation of project officers’ responsibilities, monitoring
               procedures, and “WQ” cost reviews at the time of closeout. Develop a
               standard format for project officers of interagency agreements to transmit
               cost redistribution information to the Cincinnati Finance Center.

          2. 	 Evaluate the need for training on “WQ” redistribution procedures for each
               type of funding vehicle and provide the appropriate level of training to the
               responsible personnel.

          3. 	 Continue working with the regions to redistribute the historical costs
               remaining in the “WQ” site identifier.

        We recommend that OSWER and OARM:

          4. 	 Complete ongoing efforts to change the cooperative agreement conditions
               to require the recipient to provide site-specific cost details within 24 hours
               of drawing down funds, and enforce those conditions.

          5. 	 Amend the closeout process for cooperative agreements to include
               procedures to verify that “WQ” costs are redistributed.




                                         7

           6. 	 Promote accountability for “WQ” redistributions among project officers
                and finance office personnel.

Agency Response and OIG Comment
        EPA agreed with our findings and recommendations. For each recommendation,
        EPA provided a corrective action plan, milestone date, and the responsible office.
        We consider EPA’s actions to be appropriate. The Agency’s full response to the
        draft report is in Appendix D.




                                         8

                              Status of Recommendations and
                                Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                         Planned
    Rec.   Page                                                                                         Completion       Incurred        Agreed To
    No.     No.                       Subject                       Status1         Action Official        Date          Amount           Amount

     1      7     Develop written procedures for implementing         O       CFO,                       October            $0              $0
                  EPA’s Superfund site-specific accounting                    Assistant Administrator     2006
                  policies related to the general site identifier             for OSWER, and
                  “WQ,” including a timeliness standard for                   Assistant Administrator
                  redistributions for each funding vehicle, an                for OARM
                  explanation of project officers’
                  responsibilities, monitoring procedures, and
                  “WQ” cost reviews at the time of closeout.
                  Develop a standard format for project officers
                  of interagency agreements to transmit cost
                  redistribution information to the Cincinnati
                  Finance Center.
     2      7     Evaluate the need for training on “WQ”              O       CFO,                      November            $0              $0
                  redistribution procedures for each type of                  Assistant Administrator     2006
                  funding vehicle and provide the appropriate                 for OSWER, and
                  level of training to the responsible personnel.             Assistant Administrator
                                                                              for OARM
     3      7     Continue working with the regions to                O       CFO,                       Ongoing         $13,000         $13,0002
                  redistribute the historical costs remaining in              Assistant Administrator
                  the “WQ” site identifier.                                   for OSWER, and            Completed        $26,000         $26,0003
                                                                              Assistant Administrator
                                                                              for OARM
     4      7     Continue working to change the cooperative          O       Assistant Administrator    October            $0              $0
                  agreement conditions to require the recipient               for OSWER and               2006
                  to provide site-specific cost details within 24             Assistant Administrator
                  hours of drawing down funds, and enforce                    for OARM
                  those conditions.
     5      7     Amend the closeout process for cooperative          O       Assistant Administrator    October            $0              $0
                  agreements to include procedures to verify                  for OSWER and               2006
                  that “WQ” costs are redistributed.                          Assistant Administrator
                                                                              for OARM
     6      8     Promote accountability for “WQ”                     O       Assistant Administrator   November            $0              $0
                  redistributions among project officers and                  for OSWER and             2006 and
                  finance office personnel.                                   Assistant Administrator    Ongoing
                                                                              for OARM




1 O = recommendation is open with agreed-to corrective actions pending;
  C = recommendation is closed with all agreed-to actions completed;
  U = recommendation is undecided with resolution efforts in progress
2 In the response to the Draft Report, the Agency agreed to redistribute the remaining $13 million recorded in the WQ site identifier.
3 During the course of the audit, the Agency redistributed an aggregate of $26 million in costs recorded in WQ.




                                                                          9

                                                                                    Appendix A

                 Details on Scope and Methodology
We reviewed EPA’s processes for Superfund “WQ” site cost redistributions. To gain an
understanding of the processes, we interviewed finance office personnel in Regions 1 and 5; the
Finance Centers at Cincinnati, Research Triangle Park, and Las Vegas; and the Program Costing
Staff within OCFO.

We obtained data reports of undistributed “WQ” costs for cooperative agreements, interagency
agreements, small purchases, and contracts.

We conducted field work for cooperative agreements and small purchases in Regions 4 and 5,
the locations with the highest levels of undistributed “WQ” costs. We conducted field work for
interagency agreements in the Cincinnati Finance Center where the interagency agreement
processing occurs. We tested a sample of undistributed “WQ” costs to determine whether EPA
redistributed them timely and, if not, the causes and effects of untimely redistributions. We did
not test contract costs because we found during preliminary research that EPA monitored the
“WQ” contract costs and redistributed them timely.

We used the monetary unit method of statistical sampling to select undistributed “WQ”
payments for testing. We conducted sample testing of cooperative agreements and small
purchases in Regions 4 and 5. We gathered additional information in Region 7 because it had
unfavorable cooperative agreement terms with its recipients that prevented timely “WQ”
redistributions. For testing interagency agreements, we selected a statistical sample from the
universe of undistributed “WQ” costs in all locations. The resulting samples included “WQ”
costs from Headquarters and Regions 1, 4, 5, and 9. The Headquarters interagency agreement
samples covered activities in Regions 1, 2, 3, 4, 5, 7, and 10.

We assessed EPA’s internal controls related to obligating, disbursing, and redistributing “WQ”
costs. We gained an understanding of the internal controls through interviews of finance office
and grant management personnel, Superfund project officers, and cooperative agreement
recipients. We also reviewed internal controls by examining supporting documentation for
selected “WQ” disbursement transactions. We did not review the internal controls over EPA’s
Integrated Financial Management System from which we obtained data reports, but relied on the
review conducted during the audit of EPA’s fiscal year 2005 financial statements. For our
current review we identified deficiencies in internal controls and recommended improvements.

Although there were no prior reports on Superfund cost recovery related directly to the “WQ”
general site identifier, we reviewed the following five EPA OIG reports related to cost recovery
and management of assistance agreements:




                                                10

                                      Prior Reports Reviewed
                 Report Title                         Report No.                Date
 EPA Can Better Manage Superfund               2006-P-00013             February 28, 2006
 Resources
 EPA Managers Did Not Hold Supervisors and     2005-P-00027             September 27, 2005
 Project Officers Accountable for Grants
 Management
 Additional Efforts Needed to Improve EPA’s    2002-P-00018             September 30, 2002
 Oversight of Assistance Agreements
 Superfund Consolidated Cooperative            2000-P-00020             September 15, 2000
 Agreement Awarded to Ohio EPA
 Superfund “ZZ” Accounts                       E1SFF2-11-0051-3100266   July 2, 1993


We reviewed EPA’s internal study released in April 2004, SUPERFUND: Building on the Past,
Looking to the Future, commonly known as the 120-Day Study, that made recommendations for
improving Superfund. The 120-Day Study did not identify any findings or recommendations
directly related to the “WQ” general site identifier.




                                                11

                                                                                                 Appendix B

                  Undistributed “WQ” Costs by Region
                          and Funding Vehicle
The table below illustrates the undistributed “WQ” costs by region and funding vehicle at the
beginning and end of our audit and the subsequent date of May 12, 2006.4

                                                  Undistributed “WQ”                   (Decrease) Increase
                Region                                                                       in “WQ”
                                 January 2006        March 2006        May 12, 2006      January 2006 to
                                                                       (Unaudited)        May 12, 2006
       Cooperative Agreements
           Region 1                    $545,825            $304,400               $0            $(545,825)
           Region 2                           0                   0                0                     0
           Region 3                           0                   0                0                     0
           Region 4                  11,900,245              33,864                0          (11,900,245)
           Region 5                  16,894,959          17,299,651        7,343,954           (9,551,005)
           Region 6                           0                   0                0                     0
           Region 7                   2,141,975             816,857           73,277           (2,068,698)
           Region 8                           0                   0                0                     0
           Region 9                           0                   0                0                     0
           Region 10                     49,423                   0                0              (49,423)
                                    $31,532,427         $18,454,772       $7,417,231         $(24,115,196)
       Interagency Agreements
            Region 1                  $593,716              $51,000          $51,000            $(542,716)
            Region 2                    480,215             468,351          562,144                81,929
            Region 3                     42,308              42,308           42,352                    44
            Region 4                    816,549              82,332           16,532             (800,017)
            Region 5                    493,126             413,126          213,126             (280,000)
            Region 6                     50,057               1,126            1,126              (48,931)
            Region 7                     41,475               6,475                0              (41,475)
            Region 8                    740,901             252,821           53,023             (687,878)
            Region 9                    306,976             180,935          182,587             (124,389)
            Region 10                    67,615              67,615           74,070                 6,455
            HQ                        2,532,315           2,532,315        2,589,268                56,953
                                     $6,165,253          $4,098,404       $3,785,228          $(2,380,025)
       Small Purchases
           Region 1                     $25,455             $32,858          $27,581                $2,126
           Region 2                           0                   0                0                     0
           Region 3                      11,145              11,145           11,145                     0
           Region 4                     872,108             830,812          840,222              (31,886)
           Region 5                     493,474             493,474          493,474                     0
           Region 6                           0                   0                0                     0
           Region 7                      65,589              65,083           65,083                 (506)
           Region 8                     293,481             262,456          262,456              (31,025)
           Region 9                      32,638              32,638           32,638                     0
           Region 10                      5,000               5,000            5,000                     0
                                     $1,798,890          $1,733,466       $1,737,599             $(61,291)
       Totals                       $39,496,570         $24,286,642      $12,940,058         $(26,556,512)




4
 Subsequent to our audit, EPA provided updated data reports for undistributed “WQ” costs as of May 12, 2006. We
did not audit this data.


                                                       12

                                                                                    Appendix C

 Causes of Untimely Redistributions by Applicable
          Location and Funding Vehicle
                                                          Applicable Locations and
                                                          Types of Funding Vehicles
   Causes of Untimely Redistributions
                                                Cooperative      Interagency         Small
                                                Agreements       Agreements        Purchases
EPA did not:
 Establish procedures or set timeliness          Regions 4, 5   Regions 1, 4,     Regions 4, 5
 standards for redistributions.                                 5, 9, and HQ*
 Consistently monitor the “WQ” amounts.          Regions 4,5    Regions 1, 4,       Region 4
                                                                5, 9, and HQ
 Provide training in the “WQ” cost               Regions 4, 5   Regions 1, 4,       Region 4
 redistribution process.                                        5, 9, and HQ
 Establish “WQ” performance standards for        Regions 4, 5   Regions 1, 4,       Region 4
 project officers and hold them accountable                     5, 9, and HQ
 for “WQ” redistributions.
 Provide interagency agreement project                          Regions 1, 4,
 officers a standard format for transmitting                    5, 9, and HQ
 cost redistribution information to the
 Finance Center.
 Require cooperative agreement recipients         Region 5
 to provide the site-specific cost detail
 needed for redistributions.
 Establish a cooperative agreement                Region 7
 condition requiring the recipient to provide
 timely site-specific cost detail.
 Review undistributed “WQ” costs during           Region 5
 the closeout process.


* We reviewed five interagency agreements assigned to a Headquarters project officer that
  included activities for Regions 1, 2, 3, 4, 5, 7, and 10.




                                                13

                                                                                   Appendix D

                      Full Text of Agency Response
                                          July 13, 2006


MEMORANDUM

SUBJECT:       Response to OIG Audit “Superfund Could Improve its Redistribution to Specific
               Sites” dated May 22, 2006

FROM:          Lorna McAllister, Director /s/
               Office of Financial Management

               Milton Brown, Director /s/
               Office of Financial Services

               Mike Cook, Director /s/
               Office of Site Remediation and Technology Innovation

               Howard Corcoran, Director /s/
               Office of Grants and Debarment

TO:            Paul C. Curtis, CPA, Director
               Financial Statement Audits


       We appreciate the opportunity to respond to the findings and recommendations made in
the audit report, "Superfund Could Improve its Redistribution to Specific Sites." Attached is our
response to the specific audit findings and recommendations made in the report.

        We would like to express our appreciation for the Office of Inspector General’s
recognition of various actions and initiatives taken by the OCFO to resolve current and prior
bulk funding findings related to the redistribution of Superfund payments from the general site
identifier (WQ) to specific sites.

       If you have any questions concerning the audit response, please contact Ofelia Moore,
Financial Policy and Planning Staff, at 564-4943.

Attachment

cc:    M
       	 aryann Froehlich
       Josh Baylson
       Bill Samuels
       Art Budelier


                                                14

Tina Vanpelt
Iantha Gilmore
Raffael Stein
Alan Lewis
Jim Wood
Douglas Barrett
Ofelia Moore
Lorna McAllister
Milton Brown
David Bloom
Krista Mainess
Regional Comptrollers
Regional Superfund Accountants
Linda Yancey, OARM
Johnsie Webster, OSWER
Vince Velez, OECA
Margaret Bastin
Rita Wilson




                                 15
                                                                   ATTACHMENT


 EPA Responses to Specific Findings and Recommendations
        In general, all offices and regions agree with the findings and recommendations of the
audit. EPA is aware of the need for timely site redistribution of the WQ accounts. Even before
the audit began, regions had been working to close out old WQ balances on Cooperative
Agreements, Simplified Acquisitions, and Interagency Agreements. Due to the consolidation of
duties for processing these transactions at the EPA finance centers, EPA is now taking an
opportunity to streamline and standardize the financial policies and procedures in the Las Vegas,
Cincinnati, and Research Triangle Park finance centers. In addition, the Office of Financial
Management (OFM) is in the process of updating the Resource Management Directive Systems
2550D (RMDS) to consolidate financial and accounting policies into one manual. This will
allow us to update and expound on the WQ portion of the Comptroller Policy Announcement 96
01 – Superfund Site Specific Accounting.



A. OIG Findings and EPA Responses

       1. EPA Did Not Timely Redistribute WQ Site Costs

              EPA did not make timely redistributions of Superfund cooperative agreements,
       interagency agreements, and small purchase payments from the general site identifier
       WQ to the specific Superfund sites or other general site identifiers. As of January 2006,
       the undistributed WQ for those funding vehicles totaled $39 million. However, by May
       12, 2006, the total was tremendously reduced by $26 million to $13 million.

       EPA concurs with this finding.


       2. Untimely Redistributions Impact Cost Recovery

              Superfund costs not redistributed to specific sites may not be considered in
       settlement negotiations and oversight billings. Therefore, these funds may not be
       recovered from responsible parties and be available for future site cleanup activities.
       Consistent and accurate site-specific charging strengthens the program’s cost recovery by
       ensuring that potentially responsible parties pay their fair share of site cleanup costs.

               According to EPA Comptroller Policy Announcement No. 96-01, the Agency
       needs financial information at the site level to perform analyses and make resource
       management decisions. When Superfund costs are not redistributed to specific sites,
       Agency management may not have the accurate financial information it needs.

       EPA concurs with this finding.


                                               16

B. 	Agency Actions to Date
     EPA began corrective action on these findings before issuance of the OIG report, as
     outlined below:

       •	 EPA agreed to establish written procedures for the WQ cost redistribution process.

       •	 EPA is working with cooperative agreement recipients to change a programmatic
          condition allowing the recipient to provide site-specific cost detail only once every
          6 months to a more favorable condition requiring the recipient to provide the
          information on a more timely basis.

       •	 Subsequent to the IG’s audit, EPA provided data reports as of May 12, 2006 that
          indicated further reductions in the undistributed WQ costs from $39 million to $13
          million or a 67% drop from the start of the audit. Most of the reduction occurred in
          cooperative agreements where Region 4 redistributed $12 million WQ costs to the
          appropriate site identifier.

       •	 The Cincinnati Finance Center worked with interagency agreement P roject Officers
          to reduce the undistributed interagency agreement WQ costs from $6 million to $4
          million.

       •	 Region 5 began requiring cooperative agreement recipients to provide detailed site
          identifier cost information when the recipients draw down funds.

C. 	OIG Recommendations and EPA Planned Corrective Actions
     We recommend that OCFO, OSWER, and OARM:

      1. As agreed, develop written procedures for implementing EPA’s Superfund site-
  specific accounting policies related to the general site identifier WQ, including a timeliness
  standard for redistributions for each funding vehicle, an explanation of project officers’
  responsibilities, monitoring procedures, and WQ cost reviews at the time of closeout.
  Develop a standard format for project officers of interagency agreements to transmit cost
  redistribution information to the Cincinnati Finance Center.

  EPA Corrective Action: For all funding vehicles, OCFO will or has begun drafting
  appropriate WQ accounting policies to enhance the Comptroller Policy Announcement
  96-01. WQ redistribution procedures will be incorporated into Chapter 4 “Direct Site
  Charging” of the RMDS 2550D, also known as “Financial Management of the
  Superfund Program,” which is in the process of being updated by OCFO/OFM.
  OCFO/OFS is also developing standard operating procedures for simplified
  acquisitions similar to Superfund contracts for the processing of payments.

  Milestone Date: October 2006 

  Responsible Office: OCFO 



                                               17

   2. Evaluate the need for training on WQ redistribution procedures for each type of
funding vehicle and provide the appropriate level of training to the responsible personnel.

EPA Corrective Action: OSWER and OARM, in cooperation with OCFO/OFM, will
evaluate the need for training on WQ redistribution procedures for each type of
funding vehicle. OCFO/OFM has provided OARM with project officer training
materials for IAGs to include in its on-line officer training course.

Milestone Date: November 2006
Responsible Office: OSWER, OARM

  3. Continue working with the regions to redistribute the historical costs remaining in the
WQ site identifier.

EPA Corrective Action: EPA has prioritized this issue in order for the balances to come
in line with current WQ payments only and is working with States and other Agencies
to ensure compliance. For instance, Region III has a small backlog that they plan to
eliminate. Region V is working to eliminate the backlog before the Cooperative
Agreement processing migrates to OFS/LV this winter and has already redistributed
$9.6 million. Region V is also committed to redistributing the balance of $7.3 million by
December 2006, having obtained the cooperation of its recipients to provide the
necessary site-specific cost detail. OCFO/OFS has aggressively worked to redistribute
simplified acquisition backlog and has provided the regions with reports for their use in
eliminating their own backlog. The Las Vegas Finance Center, in coordination with the
regions and grant recipients, has already redistributed to the correct sites all
outstanding cooperative agreement WQ balances for the regions it services.

Milestone Date: Ongoing
Responsible Offices: OCFO, OARM, and OSWER

    4. Continue working to change the cooperative agreement conditions to require the
recipient to provide site-specific cost details within 24 hours of drawing down funds, and
enforce those conditions.

EPA Corrective Action: OCFO and OSWER are currently working together to agree on
the time frame to provide site specific cost details within one business day of the
payment draw down. This will include providing the award officials with appropriate
programmatic terms and conditions to be included in future grants. OCFO has
updated the Cooperative Agreement WQ site distribution policy which is being
included in a draft of Chapter 9, RMDS on Cooperative Agreements and has updated
the chapter to address the OIG’s recommendation.

Milestone Date: October 2006
Responsible Offices: OCFO, OARM/OGD, Regional Grants Management offices
and OSWER




                                            18

    5. Amend the closeout process for cooperative agreements to include procedures to
verify that WQ costs are redistributed.

EPA Corrective Action: OCFO, OARM, and OSWER will coordinate changes in
closeout procedures to ensure and verify that WQ costs are redistributed. OCFO, and
OSWER are in the process of amending the latest draft of 2550D Chapter 9 to include
language that would require all WQ payments to be redistributed at the time of Grants
closeout.

Milestone Date: October 2006
Responsible Office: OCFO, OSWER

    6. Promote accountability for WQ redistributions among project officers and finance
office personnel.

EPA Corrective Action: OCFO, OARM, and OSWER will issue guidance that assigns
specific responsibilities to ensure that WQ costs are redistributed in a timely manner.
As discussed above, OCFO, OARM, and OSWER will promote such accountability
through the update and revision of relevant policies and the evaluation of training
needs on an ongoing basis. OCFO/OFS will continue to monitor WQ payment balances
for all funding vehicles on at least a quarterly basis to ensure that appropriate project
officers and grantees are held accountable.

Milestone Date: November 2006 and Ongoing
Responsible Offices: OCFO, OARM and OSWER




                                          19

                                                                            Appendix E

                                    Distribution

Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Administration and Resources Management
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Financial Management
Director, Office of Site Remediation and Technology Innovation
Director, Office of Grants and Debarment
Audit Liaison, Office of the Chief Financial Officer
Audit Liaison, Office of Solid Waste and Emergency Response
Audit Liaison, Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Regional Administrators (1-10)
Assistant Regional Administrators (1-10)
Regional Comptrollers (1-10)
Audit Followup Coordinators, Regions (1-10)
Acting Inspector General




                                             20

